No.

In The
Supreme Court of the United States of America
MICHAEL RAMON OCHOA,
Petitioner, pro se,
v.
Dr. Arthur Levine, et al.,
Respondents.
CERTIFICATE OF COMPLIANCE
I declare under penalty of perjury that the foregoing has been produced in
compliance with Rule 33.1(h) regarding word limitations. There are 946 words in the
petition excluding the parts of the petition that are exempt by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

b

Michael Ramon Ochoa,
Petitioner, pro se
58 West Portal Ave #218
San Francisco, CA 94127
(415) 373-2172
michaelochoa@mac.com
Date: December 23, 2019

